                                             U.S. SMALL BUSINESS ADMINISTRATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   WASHINGTON, D.C. 20416




                                                                        TRANSMITTAL MEMORANDUM
                                                                                  Report No. 13-04

DATE:              November 14, 2012

TO:                Jonathan I. Carver
                   Chief Financial Officer

FROM:              John K. Needham
                   Assistant Inspector General for Auditing

SUBJECT:           Independent Auditors’ Report on the SBA’s FY 2012 Financial Statements

We contracted with the independent public accounting firm, KPMG LLP (KPMG), to audit the
U.S. Small Business Administration’s consolidated financial statements as of September 30,
2012, and for the years then ended. The contract required that the audits be conducted in
accordance with Generally Accepted Government Auditing Standards; the Office of
Management and Budget Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended; and the U.S. Government Accountability Office’s Financial Audit
Manual and Federal Information System Controls Audit Manual. This audit is an annual
requirement of the Chief Financial Officers Act of 1990.

The results of KPMG’s audits are presented in the attached report. The report includes an
opinion on SBA’s financial statements, internal control over financial reporting, and compliance
and other matters that have a direct and material effect on the financial statements. The
independent auditor issued an unqualified opinion on SBA’s fiscal year 2012 consolidated
financial statements. In summary, KPMG reported that:

      •    The financial statements were fairly presented, in all material aspects, in conformity
           with U.S. generally accepted accounting principles.
      •    There were no material weaknesses in internal control.
      •    There is a significant deficiency related to SBA’s information technology security
           controls, which is a repeat condition.
      •    There is one instance of noncompliance with laws and regulations related to the Debt
           Collection Improvement Act of 1996, which is also a repeat condition.

The report also includes one other matter related to possible violations of the Federal
Acquisition Regulation’s documentation retention requirements. Details regarding KPMG’ s
conclusions are included in the “Compliance and Other Matters” section of the Independent
Auditors’ Report. Within 30 days of this report, KPMG expects to issue a separate letter to
management regarding other less significant matters that came to its attention during the
audit.
We reviewed a copy of KPMG’s report and related documentation, and made necessary
inquiries of their respective representatives. Our review was not intended to enable us to
express, and we do not express, an opinion on the SBA’s financial statements, KPMG’s
conclusions about the effectiveness of internal control, or its conclusions about SBA’s
compliance with laws and regulations. However, our review disclosed no instances where
KPMG did not comply, in all material respects, with Generally Accepted Government Auditing
Standards.

We provided a draft of KPMG’s report to SBA’s Chief Financial Officer who concurred with its
findings and recommendations, and agreed to implement the recommendations. The Chief
Financial Officer’s comments are attached as Exhibit IV to this report.

We appreciate the cooperation and assistance of the SBA and KPMG. Should you or your staff
have any questions, please contact me at (202) 205-7390 or Jeffrey R. Brindle, Director,
Information Technology and Financial Management Group at (202) 205-7490.

Attachment




                                              2
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General,
U.S. Small Business Administration:

We have audited the accompanying consolidated balance sheets of the U.S. Small Business Administration
(SBA) as of September 30, 2012 and 2011, and the related consolidated statements of net cost, and changes
in net position, and combined statements of budgetary resources (hereinafter referred to as “consolidated
financial statements”) for the years then ended. The objective of our audits was to express an opinion on
the fair presentation of these consolidated financial statements. In connection with our fiscal year 2012
audit, we also considered the SBA’s internal control over financial reporting and tested the SBA’s
compliance with certain provisions of applicable laws, regulations, contracts, and grant agreements that
could have a direct and material effect on these consolidated financial statements.

Summary
As stated in our opinion on the consolidated financial statements, we concluded that the SBA’s
consolidated financial statements as of and for the years ended September 30, 2012 and 2011, are presented
fairly, in all material respects, in conformity with U.S. generally accepted accounting principles.

As discussed in our opinion on the consolidated financial statements, the SBA changed its presentation for
reporting the statement of budgetary resources in fiscal year 2012.

Our consideration of internal control over financial reporting resulted in identifying certain deficiencies,
relating to information technology security controls, that we consider to be a significant deficiency, as
defined in the Internal Control Over Financial Reporting section of this report.

We did not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses as defined in the Internal Control Over Financial Reporting section of this report.

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed one instance of noncompliance, relating to the Debt Collection Improvement Act of
1996, and one other matter, that are required to be reported under Government Auditing Standards, issued
by the Comptroller General of the United States, and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

The following sections discuss our opinion on the SBA’s consolidated financial statements; our
consideration of the SBA’s internal control over financial reporting; our tests of the SBA’s compliance
with certain provisions of applicable laws, regulations, contracts, and grant agreements; and management’s
and our responsibilities.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
U.S. Small Business Administration
November 14, 2012
Page 2 of 5




Opinion on the Consolidated Financial Statements
We have audited the accompanying consolidated balance sheets of the SBA as of September 30, 2012 and
2011, and the related consolidated statements of net cost, and changes in net position, and the combined
statements of budgetary resources for the years then ended.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the SBA as of September 30, 2012 and 2011, and its net costs, changes in
net position, and budgetary resources for the years then ended, in conformity with U.S. generally accepted
accounting principles.

As discussed in Note 15 to the consolidated financial statements, the SBA changed its presentation for
reporting the combined statement of budgetary resources in fiscal year 2012, based on new reporting
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result, the SBA’s
combined statement of budgetary resources for fiscal year 2011 has been adjusted to conform to the current
year presentation.

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, Required Supplementary Information, and Required Supplementary Stewardship Information
sections be presented to supplement the basic financial statements. Such information, although not a part of
the basic financial statements, is required by the Federal Accounting Standards Advisory Board who
considers it to be an essential part of financial reporting for placing the basic financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited procedures to the
required supplementary information in accordance with auditing standards generally accepted in the United
States of America, which consisted of inquiries of management about the methods of preparing the
information and comparing the information for consistency with management’s responses to our inquiries,
the basic financial statements, and other knowledge we obtained during our audits of the basic financial
statements. We do not express an opinion or provide any assurance on the information because the limited
procedures do not provide us with sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Other Information section is presented for the purposes of additional
analysis and is not a required part of the basic financial statements. Such information has not been
subjected to the auditing procedures applied in the audits of the basic financial statements, and accordingly,
we do not express an opinion or provide any assurance on it.

Internal Control Over Financial Reporting
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
Responsibilities section of this report and was not designed to identify all deficiencies in internal control
over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
U.S. Small Business Administration
November 14, 2012
Page 3 of 5




fiscal year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that
we consider to be material weaknesses, as defined above. However, we identified certain deficiencies in
internal control over financial reporting described in Exhibit I, related to information technology security
controls, that we consider to be a significant deficiency in internal control over financial reporting. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Exhibit II presents the status of the prior year significant deficiency, which was also related to information
technology security controls.

We noted certain additional matters that we have reported to management of the SBA in a separate letter
dated November 14, 2012.

Compliance and Other Matters
The results of certain of our tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA),
disclosed one instance of noncompliance and one other matter that are required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 07-04, and are described below.

Debt Collection Improvement Act of 1996 (DCIA). The DCIA assigns the U.S. Department of Treasury
(Treasury) the responsibility for collecting delinquent debts (cross servicing) Government-wide. The DCIA
requires federal agencies to transfer their nontax debt over 180 days delinquent to Treasury. During our
testwork over loan charge-offs, we noted the SBA did not refer obligors (eligible principal borrowers, co-
borrowers, and/or guarantors) to Treasury for offset or cross-servicing at the time of charge-off, as required
by DCIA. Exhibit III presents the status of the prior year noncompliance finding, which was also related to
DCIA.

The results of our other tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in FFMIA, disclosed no instances of noncompliance and one other matter that
is required to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the SBA’s financial management
systems did not substantially comply with the (1) Federal financial management systems requirements, (2)
applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at
the transaction level.

Other Matter: A matter has been identified that may be a violation of the Federal Acquisition Regulation
documentation retention requirements. This matter is currently under review by SBA management and the
Office of Inspector General. The outcome of this matter is not presently known.

                                                 *******

Responsibilities
Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control over financial reporting; and complying with laws,
regulations, contracts, and grant agreements applicable to the SBA.
U.S. Small Business Administration
November 14, 2012
Page 4 of 5




Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012 and 2011
consolidated financial statements of the SBA based on our audits. We conducted our audits in accordance
with auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we
plan and perform the audits to obtain reasonable assurance about whether the consolidated financial
statements are free of material misstatement. An audit includes consideration of internal control over
financial reporting as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of the SBA’s internal control over
financial reporting. Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall consolidated financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2012 audit, we considered the SBA’s internal control over
financial reporting by obtaining an understanding of the SBA’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the SBA’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the SBA’s internal control over financial reporting. We did not test all controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether the SBA’s fiscal year 2012 consolidated financial
statements are free of material misstatement, we performed tests of the SBA’s compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of the consolidated financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the provisions
referred to in Section 803(a) of FFMIA. We limited our tests of compliance to the provisions described in
the preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant
agreements applicable to the SBA. However, providing an opinion on compliance with laws, regulations,
contracts, and grant agreements was not an objective of our audit and, accordingly, we do not express such
an opinion.

                                   ______________________________

The SBA’s written response to the findings identified in our audit and presented in Exhibit IV was not
subjected to the auditing procedures applied in the audit of the SBA’s consolidated financial statements
and, accordingly, we express no opinion on it.
U.S. Small Business Administration
November 14, 2012
Page 5 of 5




This report is intended solely for the information and use of the SBA’s management, the SBA’s Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 14, 2012
                                                                                                  Exhibit I
                                   U.S. Small Business Administration
                                          Significant Deficiency


The significant deficiency identified in our Fiscal Year (FY) 2012 audit, is summarized below:

Improvement Needed in Information Technology Security Controls

During our prior year, FY 2011, financial statement audit, we identified 18 information technology (IT)
control findings, and recommended many corresponding corrective actions. During the FY 2012 financial
statement audit, we found that the U.S. Small Business Administration (SBA) implemented corrective
actions to remediate 3 of the 18 findings; however, we also identified 9 new IT control findings. Therefore,
SBA’s IT control environment continues to require improvement.

The IT control deficiencies that we noted during the FY 2012 audit are summarized below and fall under
the following general IT control objectives: security access controls, segregation of duties, security
management, software configuration management, and contingency planning. We did not provide details
on the specific IT control deficiencies in this report due to sensitivity considerations surrounding the
information systems. We have provided the details in a separate report to SBA management. Exhibit II of
our report discloses the status of prior year IT findings.

Security Access Controls

Integral to the effectiveness of an organization’s security program management efforts, system security
access controls should provide reasonable assurance that IT resources, such as data files, application
programs, and IT-related facilities/equipment, are protected against unauthorized modification, disclosure,
loss, or impairment. Our audit found the following control deficiencies:
•   Several high- and medium-risk security vulnerabilities affecting various financial systems.
•   A weakness in network access controls.
•   The SBA was unable to provide evidence that security incidents are analyzed, validated, and resolved.
•   Physical access control procedures can be improved for all financial systems managed at SBA
    Headquarters (HQ) and one financial system hosted by an SBA service provider. In addition, access to
    the data centers can be improved.
•   Several users had unnecessary access to an SBA financial subsystem.
•   User accounts were not reviewed in accordance with SBA policy for five of the seven systems we
    reviewed.
•   Complex and unique password configurations were not implemented and/or enforced.
•   User accounts were not disabled or removed promptly upon personnel termination.
•   Financial system user accounts and remote access authorizations were not properly authorized.
•   Weak controls over the monitoring and review of audit logs for four of the seven systems we reviewed.




                                                    I-1
                                                                                                      Exhibit I
                                   U.S. Small Business Administration
                                           Significant Deficiency


Recommendations – Security Access Controls:

We recommend the Chief Information Officer (CIO) coordinates with SBA program offices to:

1. Enhance security vulnerability management processes. Specifically, (a) ensure that servers, operating
   systems, and databases are properly configured and updated on a routine basis; (b) monitor SBA
   vulnerability reports for required patches; (c) update systems based on risk determination and threats.
2. Develop and implement procedures to ensure mandatory domain authentication for Internet Protocol
   (IP) address issuance.
3. Fully implement the SBA entity-wide incident management and response program and ensure that
   procedures are enforced.
4. Ensure that information systems hosted by the SBA and third parties comply with SBA policy and
   National Institute of Standards and Technology guidance.
5. Develop and implement procedures for user access reviews to ensure that proper access rights are set
   for financial subsystems.
6. Ensure that all new system users are assigned random passwords and are subsequently required to
   change their password upon first log-in.
7. Develop and implement procedures for user access termination to ensure that access for terminated or
   transferred personnel is removed from systems in a timely manner.
8. Develop and enforce procedures for user access approvals, including remote access, and retain the
   evidence of the approvals.
9. Oversee the review and validation of financial system accounts on a quarterly basis.
10. Implement a process to monitor the audit logs of all financial applications on a regular basis.

Segregation of Duties

The primary focus of an organization’s segregation of duties controls is to provide reasonable assurance
that incompatible duties are effectively segregated. Without such controls, there is a risk that unauthorized
changes could be implemented into the IT environment, and users may have access that is inappropriate for
their duties. As a result, the confidentiality, integrity, and availability of financial data are at risk of
possible loss, modification, or disclosure. Our audit found the following control deficiencies:
•   An authorized user had conflicting access rights in a key financial system.
•   Twenty-eight service accounts were not properly restricted with unique log-ins and passwords.
•   Users were authorized with conflicting rights as a database administrator (DBA) and system
    administrator to a financial application hosted by an SBA service provider.




                                                    I-2
                                                                                                   Exhibit I
                                   U.S. Small Business Administration
                                           Significant Deficiency


Recommendations – Segregation of Duties:

We recommend the CIO coordinates with the Chief Financial Officer (CFO) to:

11. Restrict access to software programs based on the principle of least privilege, and implement
    compensating controls over actions where limited resources cause individuals to perform conflicting
    job functions.

12. Ensure that DBA and system administrator access is restricted through role-based segregation of duties
    and managed through an effective audit log review process.

Security Management
An entity-wide information security management program is the foundation of a security control structure
and a reflection of senior management’s commitment to addressing security risks. This security
management program should establish a framework and continuous cycle of activity for assessing risk,
developing and implementing effective security procedures, and monitoring the effectiveness of these
procedures. Our audit found the following control deficiency:
    •   The CIO had not fully implemented a mandatory training program for IT security personnel.
Recommendations – Security Management:

We recommend the CIO:

13. Updates the position descriptions for IT security personnel to include minimum annual training
    requirements.

14. Develops and fully implement a comprehensive security education and training program for all IT
    security personnel, to include a method for monitoring the training program.

Software Configuration Management
The primary focus of an organization’s software configuration management process is to control the
software changes made to networks and systems. Without such controls, there is a risk that security
features could be inadvertently, or deliberately, omitted or turned off, or that processing irregularities or
malicious code could be introduced into the IT environment. Our audit noted the following control
deficiencies:

•   The configuration management process is not centralized, and the Enterprise Change Control Board
    governance processes were not fully implemented across SBA.
•   SBA personnel did not provide sufficient evidence to support software change authorizations for one
    financial system.
•   Software changes for one financial subsystem were not tested before being moved to production,
    which impacted the SBA’s compliance with the Debt Collection Improvement Act of 1996 (DCIA).
    This issue was reported as a noncompliance matter in the Compliance and Other Matters section of our
    audit report.

                                                    I-3
                                                                                                    Exhibit I
                                   U.S. Small Business Administration
                                           Significant Deficiency


Recommendations – Software Configuration Management:

We recommend the CIO:

15. Enforces an organization-wide configuration management process, to include policies and procedures
    for maintaining documentation that supports testing and approvals of software changes.

We recommend the CIO coordinates with the CFO to:

16. Implement configuration management policies and procedures for document retention to include
    supporting evidence to validate the authorization of operating system changes.

Contingency Planning

The focus of an organization’s contingency planning program should provide reasonable assurance that
information resources are protected and the risk of unplanned interruptions is minimized. Without such
controls, there is a risk that data may be lost or that critical operations may not resume in a timely manner.
Our audit noted the following control deficiencies:
•   Backup tapes necessary to restore system operations were not consistently rotated off-site for four of
    the seven systems we reviewed.
•   Comprehensive contingency plans had not been developed and authorized for one key financial system.
    In addition, another system’s plan was not updated to reflect the current environment.

•   Five of the seven contingency plans, which includes the HQ Continuity of Operations Plan (COOP),
    were documented and approved but were not tested semiannually as prescribed by SBA policy. Two of
    the plans, which were first authorized in May 2011, had never been tested.

•   One key financial system lacked adequate recovery capabilities commensurate with the system’s
    Federal Information Processing Standards Publication 199 categorization.

Recommendations – Contingency Planning:

We recommend the CIO:

17. Enforces existing SBA policies to rotate backups off-site.

18. Conducts a Business Impact Analysis, develop and implement the contingency plans, and establish an
    alternate processing site.

We recommend the CIO coordinate with the CFO to:

19. Test system-specific plans and the HQ COOP on a frequency consistent with SBA policy.




                                                    I-4
                                                                                                    Exhibit II
                                  U.S. Small Business Administration
                               Status of Prior Year Significant Deficiency


Fiscal Year 2011 Finding                             Fiscal Year 2012 Status of Finding

Improvement Needed in Information Technology (IT) During our review of SBA’s IT general and application
Security Controls                                 controls, we noted some improvements made to
                                                  address prior year findings. However, control
                                                  deficiencies continue to exist.

                                                     Therefore, in fiscal year 2012, the issue is again
                                                     presented in Exhibit I. The issue was modified to
                                                     reflect current year operations, and we continue to
                                                     report a significant deficiency in internal controls, as it
                                                     relates to IT systems and the associated impact on the
                                                     consolidated financial statements.




                                                   II-1
                                                                                                    Exhibit III
                                     U.S. Small Business Administration
                                      Status of Prior Year Noncompliance


Fiscal Year 2011 Finding                                 Fiscal Year 2012 Status of Finding

Debt Collection Improvement Act of 1996 (DCIA)

During our Fiscal Year (FY) 2011 audit, we noted the     During our review over SBA’s compliance with the
agency was noncompliant with the DCIA. The               DCIA, we noted improvements made in SBA’s
noncompliance was due to instances where SBA did         Treasury cross-servicing referral process. However,
not refer a substantial number of charged-off loans to   during FY 2012, we noted instances of noncompliance
the Treasury for cross-servicing.                        related to timely referrals of loan charge-offs to
                                                         Treasury for offset and cross-servicing. We also noted
                                                         that the approximately 5,000 eligible obligors
                                                         identified in FY 2011 have not been properly referred
                                                         to the Treasury as of FY 2012.Therefore, in FY2012,
                                                         the issue is again presented in the Compliance and
                                                         Other Matters section of our Independent Auditors’
                                                         Report.

                                                         We recommend the Associate Administrator for
                                                         Capital Access 1:

                                                         20. Conducts training to educate loan center staff on
                                                             the proper steps to refer obligors to the Treasury
                                                             through the system and how to correct errors after
                                                             loans have been referred to Treasury.
                                                         21. Considers implementing a process to monitor loans
                                                             that reach 150 days delinquent to ensure, that at
                                                             180 days, the loans are properly referred to the
                                                             Treasury.
                                                         22. Continues to work with the Treasury to refer the
                                                             more than 5,000 co-borrowers and guarantors that
                                                             were not referred in FY 2011.
                                                         23. Continues to review system protocol to identity
                                                             any other coding problems which may cause
                                                             untimely referral of loans.
                                                         24. Implements quarterly monitoring reviews to
                                                             identify all charged-off loans where the automatic
                                                             referral did not occur.




1
  The recommendations listed in this exhibit were sequenced after the recommendations presented on Exhibit I, IT
Significant Deficiency, to assist users of this report tracking the number of recommendations presented.


                                                      III-1
                                                                                                  Exhibit IV




               CFO Response to Draft Audit Report on FY 2012 Financial Statements

DATE:           November 14, 2012

TO:             John Needham, Assistant IG for Auditing

FROM:           Jonathan Carver, Chief Financial Officer

SUBJECT:        Draft Audit Report on FY 2012 Financial Statements

The Small Business Administration has received the draft Independent Auditors’ Report from KPMG that
includes the auditor’s opinion on the financial statements and its review of the Agency’s internal control over
financial reporting and compliance with laws and regulations. The independent audit of the Agency’s financial
statements and related processes is a core component of SBA’s financial management program.

We are pleased that the SBA has again received an unqualified audit opinion from the independent auditor
with no material weaknesses. We believe these results accurately reflect the quality of the Agency’s financial
statements and our improved accounting, budgeting and reporting processes. As you know, the SBA has
worked hard in past years to address the findings from our independent auditor. Our core financial reporting
data and processes have further improved, and we are proud that the results of our efforts have been
confirmed by the independent auditor.

The audit report includes a continuing significant deficiency in SBA’s information technology controls. As the
auditor noted in the report on the FY 2012 financial statements, the SBA implemented corrective action this
year to remediate 3 of the 18 prior year IT control findings. The auditor, however, identified 9 new IT findings
this year and re-issued one NFR related to it. The SBA will continue to work on improvements in IT
security. The SBA will track, monitor, and aggressively mitigate vulnerabilities in all Agency
systems. Furthermore, the SBA will clarify and strengthen detailed procedures required to ensure security
access controls are in place to protect SBA data from unauthorized modification, disclosure, and loss.

The auditor reported again this year that the SBA is not compliant with the Debt Collection Improvement Act of
1996 related to timely referral of charged-off loans to the Department of the Treasury for its tax refund offset
and collection programs. Although the SBA made improvements to correct systemic errors identified last year,
the auditor again found instances of charged-off loans where co-borrowers and guarantors were not referred
to Treasury. The SBA is working on procedures to correct this issue.

The audit report includes one other matter that may be a violation of the Federal Acquisition Regulation
documentation retention requirements. This is the second year since the SBA transferred the procurement
functions to the Office of the Chief Financial Officer. The FY 2012 review of internal controls over financial
reporting revealed that, while there was considerable improvement in the contracting area, more time and
resources will be required to resolve all outstanding issues. These include formalizing the acquisition process
and related requirements through Agency-wide Standard Operating Procedures, ensuring all contracting
documents are signed by appropriate authorized individuals, and ensuring that invoices are reviewed by
appropriate parties before payment is disbursed. The Agency takes this matter very seriously and we have
already taken steps to make further improvements.

We appreciate all of your efforts and those of your colleagues in the Office of the Inspector General as well as
those of KPMG. The independent audit process continues to provide us with new insights and valuable
recommendations that will further enhance SBA’s financial management practices. We continue to be
committed to excellence in financial management and look forward to making more progress in the coming
year.
